Jeffrey W. Sheehan
jsheehan@bradley.com
615.252.2392 direct

June 11, 2021

Clerk
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20002
Re:

Akil Jahi v. State of Tennessee

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that this Petition for a Writ of
Certiorari contains 3303 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that the
foregoing is true and correct.
Bradley Arant Boult Cummings LLP
/s/ Jeffrey W. Sheehan
Jeffrey W. Sheehan
JWS

Bradley Arant Boult Cummings LLP | Roundabout Plaza | 1600 Division Street, Suite 700 | Nashville, TN 37203 | 615.244.2582 | bradley.com

